<html>
<title> - TRIPLE THREAT TO WORKERS AND HOUSEHOLDS: IMPACTS OF FEDERAL REGULATIONS ON JOBS, WAGES AND STARTUPS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                TRIPLE THREAT TO WORKERS AND HOUSEHOLDS:
                IMPACTS OF FEDERAL REGULATIONS ON JOBS,
                           WAGES AND STARTUPS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           REGULATORY REFORM,
                      COMMERCIAL AND ANTITRUST LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2016

                               __________

                           Serial No. 114-65

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                              _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 98-826 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                     
     
     
     
     
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Regulatory Reform, Commercial and Antitrust Law

                   TOM MARINO, Pennsylvania, Chairman

                 BLAKE FARENTHOLD, Texas, Vice-Chairman

DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr.,
DOUG COLLINS, Georgia                  Georgia
MIMI WALTERS, California             SUZAN DelBENE, Washington
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
DAVE TROTT, Michigan                 DAVID N. CICILLINE, Rhode Island
MIKE BISHOP, Michigan                SCOTT PETERS, California

                      Daniel Flores, Chief Counsel
                      
                      
                            C O N T E N T S

                              ----------                              

                           FEBRUARY 24, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Darrel E. Issa, a Representative in Congress from 
  the State of California, and Member, Subcommittee on Regulatory 
  Reform, Commercial and Antitrust Law...........................     1
The Honorable Henry C. ``Hank'' Johnson, Jr., a Representative in 
  Congress from the State of Georgia, and Ranking Member, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4

                               WITNESSES

Ryan Murray, Vice President of Operations, Murray Energy 
  Corporation
  Oral Testimony.................................................    14
  Prepared Statement.............................................    17
Janet Whitacre-Kaboth, President, CEO and Chairman of the Board, 
  Whitacre-Greer Company
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
Jared Meyer, Fellow, Economics21, Manhattan Institute
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37
Patrick A. McLaughlin, Ph.D. Senior Research Fellow, Mercatus 
  Center at George Mason University
  Oral Testimony.................................................    56
  Prepared Statement.............................................    58
Robert Weissman, President, Public Citizen
  Oral Testimony.................................................    61
  Prepared Statement.............................................    63
Josh Bivens, Ph.D. Research and Policy Director, Economic Policy 
  Institute
  Oral Testimony.................................................    87
  Prepared Statement.............................................    89

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................     6
Material submitted by the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Ranking Member, Subcommittee on Regulatory Reform, 
  Commercial and Antitrust Law...................................   105
Material submitted by the Honorable Tom Marino, a Representative 
  in Congress from the State of Pennsylvania, and Chairman, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law   116

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Tom Marino, a Representative 
  in Congress from the State of Pennsylvania, and Chairman, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law   122
Response to Questions for the Record from Jared Meyer, Fellow, 
  Economics21, Manhattan Institute...............................   146
Response to Questions for the Record form Patrick A. McLaughlin, 
  Ph.D. Senior Research Fellow, Mercatus Center at George Mason 
  University.....................................................   148


TRIPLE THREAT TO WORKERS AND HOUSEHOLDS: IMPACTS OF FEDERAL REGULATIONS 
                      ON JOBS, WAGES AND STARTUPS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                       House of Representatives,

                  Subcommittee on Regulatory Reform, 
                      Commercial and Antitrust Law

                      Committee on the Judiciary,

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 3 p.m., in room 
2141, Rayburn House Office Building, the Honorable Darrell 
Issa, (acting Chairman of the Subcommittee) presiding.
    Present: Representatives Marino, Issa, Collins, Ratcliffe, 
Johnson, Conyers, Jeffries, and Peters.
    Staff Present: (Majority) Daniel Huff, Counsel; Andrea 
Lindsey, Clerk; (Minority) Slade Bond, Minority Counsel; Susan 
Jensen, Counsel; and Rosalind Jackson, Professional Staff 
Member.
    Mr. Issa. Good afternoon. The Subcommittee on Regulatory 
Reform, Commercial and Antitrust Law will come to order. 
Without objection, the Chair will be authorized to declare 
recesses of the Committee at any time. We welcome everybody to 
the hearing today on ``Triple Threat to Workers and Households; 
Impacts of Federal Regulations on Jobs, Wages, and Startups.'' 
And I will now recognize myself for an opening statement, 
having made an opening statement simply by reading the title.
    To some people in Washington, it seems naturally, or even 
desirable, for the world to be governed by an endless, 
expanding web of integrate rules. Perhaps that is because 
Washington is a city of zealous policy advocates and lawyers, 
of which I am not one. A 2012 Washington Post article noted 
that law firms are flocking to Washington, D.C., for ``work 
centered around the capital's regulatory regime.'' There is no 
question that is true.
    I am sure, when I ask each of you your professions, I will 
get two out of four as lawyers as a start. But I think, more 
obviously, this is a city of lawyers. This is a city and a 
region in which you cannot even get off jury duty by being a 
lawyer because they could not get a jury impaneled if they let 
lawyers off the hook.
    There is a great distance, both physically and socially, 
between the regulators and the regulated. Regulators understand 
job impacts intellectually. They understand what they hope to 
achieve in the way of protection, but they often do not meet 
with industry representatives, but they are within the D.C. 
bubble. No one they know is going to lose a job because of 
overregulation.
    Increasingly, there are two different worlds. Perhaps the 
insensitivity explains the current Administration's fanatic 
commitment to increased regulations, even as a recovery remains 
shaky. Each year since 2008, regulators have added more than 
$100 billion; that is a billion with a ``B,'' in new regulatory 
cost.
    For 2016, the Administration plans 22 ``economically 
significant'' regulations, up 20 percent from 2015. Outside the 
Beltway, we feel the impact. A National Black Chamber of 
Commerce study found that EPA's ``proposed Clean Power Plan 
would impose severe and disproportionate economic burdens on 
poor families, especially minorities.'' No wonder Gallup 
recently found a near-record 69 percent of Americans named big 
government as the biggest threat to our country's future.
    Regulatory advocates, of course, dismiss this. Instead, 
they focus on the aggregate employment. Factory workers may 
lose their jobs, but people in Washington assume they can find 
other ways to make a living: perhaps, go back to law school. 
And that just shows how much out of touch regulatory advocates 
often are, working here in the public world of Washington, D.C. 
Any count of the ``aggregate number'' of jobs also ignores the 
quality of those jobs.
    Data shows that job displacement causes significant and 
lingering economic and physical hardship. Regulatory compliance 
jobs do not boost productivity; or another way of putting it is 
you never got a faster horse by putting more people on its 
back.
    Moreover, as formal OIRA Administrator Cass Sunstein has 
argued, even if you are not convinced that regulations kill 
jobs, regulators need to be ``giving a lot more attention to 
that risk.'' Unfortunately, only 20 percent of agencies qualify 
employment effects.
    Meanwhile, unemployment and underemployment are far higher 
than they are reported at any time, and particularly in 
January. We certainly see the U6 unemployment rate, which 
includes those workers who cannot find full-time work, stands 
at 9.9 percent.
    Similarly, the labor force participation rate remains at 
near all-time lows. Many displaced workers have simply given up 
looking. Job creation depends on startups and new businesses. 
New businesses account for nearly all net new job creation, and 
almost 20 percent of gross job creation. Yet the U.S. has 
dropped from 12th among developed economies in terms of 
business startup activity.
    Economists identify regulatory hurdles as one of the most 
significant influences on business dynamics. Today, ``almost 40 
percent of U.S. jobs require a government license, as compared 
with 5 percent just one generation ago.'' It is worth examining 
root causes of this trend, and when Federal and State 
regulatory requirements serve as barriers to market entry.
    In 2008, business deaths outnumbered business births for 
the first time in 35 years. Overregulation has wrecked the old 
economy. Now, it is suffocating startups. We have a unique 
panel of witnesses from old-line business, as well as the 
startup community, who can help us understand how deeply this 
problem is affecting our constituents. And I truly look forward 
to their testimony. And with that, I recognize the Ranking 
Member, Mr. Johnson of Georgia, for his opening statement.
    Mr. Johnson. Thank you so much, Mr. Chairman. Today's 
hearing, the so-called triple threat of Federal regulation on 
jobs, wages, and innovation, is yet another attempt to justify 
the crony capitalist mission of regulatory reform. To suggest 
that we do not need any regulations and that regulations are 
terrible and a threat to jobs, wages, and innovation is just 
ridiculous.
    While my Republican colleagues have repeatedly asserted 
that regulations inhibit job growth, all of the available 
evidence demonstrates that regulations play little role in 
unemployment. As the unemployment rate shrinks month by month, 
this argument has now shifted to wages and innovation. 
Notwithstanding the slippery nature of the regulatory reform 
debate, the facts remain clear: there is little to no 
connection between Federal regulation and jobs, wages, or 
innovation.
    Leading experts at the University of Pennsylvania conducted 
an exhaustive study in 2014 that found that regulation plays a 
relatively small role in determining the aggregate number of 
jobs.'' Earlier studies by a host of experts in economics and 
administrative law reached similar conclusions. The Economic 
Policy Institute, San Francisco Federal Reserve, and the 
National Employment Law Project have also refuted the assertion 
that regulations undermine wage growth.
    And finally, the economics chair at the Mercatus Institute, 
which is a bastion for conservative, free-market economic 
theory, has debunked the argument that regulations undermine 
innovation, finding that the exact opposite is true: 
``Industries with greater regulatory stringency have higher 
startup rates,'' as well as similarly high job creation rates.
    Meanwhile, the latest report from the Bureau of Labor 
Statistics shows that unemployment has fallen to 4.9 percent, 
the lowest since the George W. Bush recession. That is over 70 
straight months of private sector job growth. I think that is 
about 14 million jobs created over the last 70 months. And that 
is with the Obama regulatory system, which, by the way, is very 
pro-worker, pro-environment, pro-public health and safety, and 
pro-innovation. Even conservative economic theorists have given 
up insisting that pro-regulatory policies undermine our 
economic output.
    As Douglas Holtz-Eakin, president of the American Action 
Forum, and with great gnashing of his teeth noted himself, 
``With low unemployment and rising wages, the Republicans' job 
gets a lot harder.'' Noting that a recent jobs report was 
``promising.''
    Finally, some will argue today that the sharing economy is 
proof of the positive effects of deregulation. I strongly 
oppose that sentiment. The sharing economy involves nuanced 
questions concerning the interplay between competition, 
regulation, and consumer protection. It has opened new markets 
to competition that did not exist just a few years ago, while 
raising novel and complex regulatory issues.
    But let me be clear. The innovation economy has flourished 
under the Obama administration, just as the Internet blossomed 
under the Clinton administration. It does not exist in a 
regulatory or legal vacuum, and there is zero tradeoff between 
innovation and consumer protection.
    In fact, as studies have repeatedly found, consumers only 
use services where there is a strong foundation of trust. As 
the Chairman of the Subcommittee knows, I have called for a 
hearing on this subject, the innovation economy, which this 
Subcommittee exercises ample jurisdiction over.
    Indeed, we could have an entire series on it but, sadly, 
today's hearing, the 29th anti-regulatory hearing of its kind, 
will not explore the issues raised by the sharing economy in a 
thoughtful and evenhanded way. But I look forward to action on 
this issue, and with that, I will yield back.
    Mr. Issa. Thank you. It is now my privilege to recognize 
the Ranking Member of the full Committee, the gentleman from 
Michigan, Mr. Conyers.
    Mr. Conyers. Chairman Issa, we have not conducted a hearing 
on the devastating impact that overwhelming student loan debt 
has on families and on our Nation's economy, or how to 
strengthen protections for employees and retirees of companies 
and municipalities that seek bankruptcy relief, or the life-
threatening public health and safety ramifications of penny-
wise but, in my view, dollar-foolish budget cuts made by 
unelected emergency financial managers, as illustrated by the 
catastrophic Flint water crisis and the hazardous condition of 
Detroit public school buildings in Michigan. And these are 
matters that affect millions of hardworking Americans and that 
have real consequences, not the illusionary so-called triple 
threat referred to in the title of today's hearings; and I use 
the term ``illusionary'' because there is no empirical evidence 
that regulations have a deleterious impact on job growth.
    In fact, one could argue that a strong regulatory 
environment actually promotes job growth. For example, my 
colleagues here, on the other side, assert that the current 
Administration has issued an unprecedented number of 
regulations. Assuming that is true for the sake of argument, 
how can they ignore these facts? Three of them: unemployment 
has fallen by half since the 2008 Great Recession. The United 
States is in the midst of one of the longest-running streaks of 
private sector job creation in history; and three, 14 million 
new jobs have been created over the past 7 years.
    And what about the impact of regulation on wages? The 
Economic Report of the President, which was just issued earlier 
this week, reports that wages grew faster last year than at any 
time since the Great Recession.
    Admittedly, wages have not increased as much as they 
should; they have remained flat, but the cause is not because 
of overregulation. Rather, wage stagnation is largely a symptom 
of workplace inequality fostered by declining union membership 
and the resultant diminished bargaining power of lower- and 
middle-wage workers.
    Sixty years ago, 1 out of every 4 workers belonged to a 
union. Now, today, less than 10 percent of Americans belong to 
a union. In fact, union membership in some states is less than 
3 percent. Declining unionization, according to one study, 
accounts for between a fifth and a third of the increase of 
inequality since the 1970's.
    And finally, with regard to the illusionary thought that 
regulations inhibit the creation of new businesses, this too is 
inaccurate. Startup companies, by bringing new products and 
services to the marketplace, are vital to productivity growth 
in the United States. And startups create jobs.
    In 2013, startups created more than 2 million new jobs, 
compared with established firms that accounted for over 8 
million new jobs. Unfortunately, there are real barriers to 
entry for new companies. Weak antitrust enforcement over the 
years has substantially reduced competition, thereby allowing 
larger firms to squeeze new entrants.
    In addition, existing firms often lobby for rules 
protecting them from new entrants. Eliminating these real 
barriers to entry should be our Committee's priority, not 
spending, yet another hearing dealing with illusionary 
problems. And in closing, I want to thank the witnesses for 
their presence and participation. I look forward to the hearing 
of their testimony, and I thank the Chairman for his 
indulgence.
    Mr. Issa. I want to thank the Ranking Member for his well-
thought comments, and would note that at this time, I ask 
unanimous consent that the Chairman of the full Committee's 
statement be placed in the record. Without objection, so 
ordered.
    [The prepared statement of Mr. Goodlatte follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                       __________
    Mr. Issa. Additionally, I would ask all Members' opening 
statements be made a part of the record. Without objection, so 
ordered.
    I would now ask, before we begin, for all the witnesses to 
please rise and take the oath. Please raise your right hands. 
Do you solemnly swear or affirm that the testimony you will 
give here today will be the truth, the whole truth, and nothing 
but the truth? Please be seated. Let the record indicate that 
all our many witnesses answered in the affirmative.
    Today we are pleased to have a distinguished panel of 
witnesses. From left to right, we have Mr. Paul Murray. He is 
vice president of operations at the Murray Energy Corporation. 
Murray Energy Corporation is the largest independent coal 
company in America. He has worked at surface and underground 
coal mines his entire career. His duties have spanned positions 
from laborer to vice president. Mr. Murray earned his 
bachelor's degree in mining engineering at West Virginia 
University and his master's in business administration from the 
great State of Ohio, Ohio State University. Go Buckeyes.
    Ms. Janet Kaboth is president of Whitacre-Greer Company. It 
is a fourth-generation--congratulations, you beat all the 
odds--family-run company that has been manufacturing clay 
products since 1916 in northeastern Ohio. It currently operates 
a plant in Alliance, Ohio, that employs 80 people. During her 
over 30 years with the company, Ms. Kaboth has held roles in 
information systems, marketing, accounting, and strategic 
planning.
    Additionally, Ms. Kaboth serves on various industry and 
community boards. She earned her degree in education at Miami 
University in Oxford, Ohio, the alma mater of our speaker, Paul 
Ryan, and a master's in business administration from Baldwin 
Wallace College. And I will take just a moment to say, as a 
native Clevelander, you spent your whole live within a short 
drive of where I grew up.
    Our next witness, Jared Meyer, is a fellow at the Manhattan 
Institute. His area of expertise includes microeconomic theory 
and economic effects of government regulations. His work has 
been featured in various national publication and media 
outlets. He is also the co-author of a book, ``Disinherited: 
How Washington Is Betraying America's Young.''
    Mr. Meyer earned his bachelor's degree in finance with a 
minor in philosophy of law at St. John's University, where he 
graduated summa cum laude.
    Next we have Dr. Patrick McLaughlin, senior research fellow 
at the Mercatus Center, previously mentioned as apparently not 
a bastion of liberalism. His research has focused on 
regulations and the regulatory process. Prior to joining 
Mercatus, Dr. McLaughlin served as a senior economist at the 
Federal Railroad Administration. He has published in the fields 
of law and economics, public choice, environmental economics, 
and international trade and has testified before both the House 
of Representatives and the Senate, as well as state 
legislatures.
    Dr. McLaughlin earned his bachelor's degree in language and 
international trade, as well as his master's and Ph.D. in 
economics from Clemson University. Dr. Robert Weissman. Is it 
Weissman or Weissman?
    Mr. Weissman. Weissman.
    Mr. Issa. Weissman.--Is the president of Public Citizen. 
His expertise ranges from corporate accountability and 
government transparency to trade and globalization to economic 
and regulatory policy. Prior to joining Public Citizen, Mr. 
Weissman served as director of the corporate accountability 
organization at Essential Action and as editor of the 
Multinational Monitor. He is widely published and has made many 
media appearances.
    Mr. Weissman earned his bachelor's degree in social studies 
from Harvard University, and his J.D. again from Harvard, where 
he graduated magna cum laude. No slouch is he.
    Dr. Bivens, you are last but not least. You are the 
research and policy director at the Economic Policy Institute, 
often called EPI. Your expertise includes microeconomics and 
monetary policy and economics of globalization, social 
insurance, and public investment. Additionally, you have 
provided expert testimony on issues before the U.S. Congress, 
as well as analyses for the United Nations and the Trade Union 
Advisory Committee. Dr. Bivens is widely published, including 
both books and articles, and has made various media 
appearances. Before joining EPI, Dr. Bivens was assistant 
professor of economics at Roosevelt University and provided 
consulting services to Oxfam America.
    Dr. Bivens earned his bachelor's degree in economics from 
the University of Maryland at College Park, and his Ph.D. in 
economics from the New School of Social Research.
    Again, I said it was a distinguished panel; it certainly 
is, and I thank you. And with that, I would only, as you might 
imagine, say with this large panel, would you please strictly 
stay to 5 minutes or less? The counter, little traffic light 
there, will guide you. Green, of course, means you may continue 
as quickly as possible. Yellow means you really have to go 
quick. And of course, red always means stop now. With that, we 
have our first witness, Mr. Murray.

TESTIMONY OF RYAN MURRAY, VICE PRESIDENT OF OPERATIONS, MURRAY 
                       ENERGY CORPORATION

    Mr. Murray. Mr. Chairman, Members of the Committee, thank 
you. My name is Ryan Murray. I am vice president of operations 
at Murray Energy Corporation, our Nation's largest underground 
coal mining company. I am here today to discuss the devastating 
impacts from the Stream Protection Rule proposed by the Office 
of Surface Mining Reclamation and Enforcement: the Nation's 
mining operations, our proud American coal miners and their 
families, our numerous suppliers, and our communities.
    While I will focus today on the Stream Protection Rule, it 
is just one of many regulations from this Administration that 
are destroying our industry's jobs, operations, suppliers, 
communities, and families.
    Murray Energy and subsidiary companies have over 2,000 
employees out of work right now from our peak employment of 
8,000 employees in May of 2015. Several hundred of these men 
and women I hired myself. Due to the destructive and illegal 
actions of the Obama administration, our industry is under 
attack. Now with the proposed Stream Protection Rule, our 
industry will be eliminated for no environmental benefit. The 
SPR was originally conceived to keep surface mining operations 
from mining through streams.
    However, during the 6 years it took OSM to draft the SPR, 
the rule was manipulated into complete rewrite of the Surface 
Mining Control and Reclamation Act of 1977. This is most likely 
due to the fact that OSM drafted the rule largely behind closed 
doors and without meaningful input from primacy state agencies, 
nearly all of whom dropped out of the formal consultation 
process with OSM because they deemed it to be a sham.
    Now the SPR will ultimately end all underground longwall 
mining in the United States. Longwall mining is the safest, 
most modern, cost-effective, productive, and environmentally 
friendly method of mining in existence. As the diagrams 
attached to my testimony show, due to OSM's incredibly broad 
and unsupported interpretations in the SPR, extremely vast 
portions of Murray Energy's coal reserves and those of other 
coal companies will be sterilized if the rule is finalized as 
proposed. Incredibly, OSM has not even considered the need for 
a grandfathering provision, which means that primacy states 
will be required to overturn existing permits for which 
significant time, planning, and resources have already been 
expended.
    Simply stated, the SPR eliminates the United States coal 
industry. For underground mining operations, the SPR is 
expected to strand 289 million tons of coal reserves annually, 
with a value of at least $18 billion per year. Additional 
impacts include a decrease in recovery of coal reserves by up 
to 64 percent, loss of annual contribution to the Nation's GDP 
of between $26 and $58 billion, and $3 to $6 billion in Federal 
and state tax revenue reductions. This will be devastating for 
America.
    This is a human issue. Layoffs are expected to be dramatic, 
with between 40,000 and 77,000 coal miners expected to lose 
their jobs. These estimates completely undercut OSM's 
ridiculous suggestion that there will be minimal job impacts 
from the rule because coal mining jobs will be replaced with 
compliance and government inspector positions.
    The broader effects of these layoffs will be enormous, as 
suppliers, retailers, and others feel the impact of reduced 
spending from the mining industry. One outside expert concluded 
that the SPR would cost between 112,000 to 280,000 jobs 
throughout the United States. Another analysis indicates an 
even greater ripple effect, where one lost mining job causes a 
loss of 11 additional jobs in the community, meaning up to 
850,000 lost jobs as a result of the SPR.
    For a coal miner, losing a job even temporarily is 
financially devastating. Most often, their major asset owned by 
many miners is their home. When they have to relocate just to 
attempt to find work, to whom are they supposed to sell this 
home? Their community is devastated. The Administration asserts 
that these coal miners will simply be retrained for other work 
within their communities. The reality is, there are virtually 
no other high-paying jobs in these communities. The average 
wages of a U.S. coal miner are typically double those of the 
average in their community.
    Additionally, suppliers to the coal industry will be 
further devastated by the SPR. For example, one major equipment 
supplier in the mining industry, who is a world leader in 
innovation and development, had their first layoff in the 
company's 80-year history just last month. The SPR will push 
this innovation and manufacturing to other countries 
permanently.
    Lastly, the impacts on coal mining communities themselves 
will be significant. Many of these communities rely on coal 
severance tax revenues to fund critical programs and projects, 
including school districts. OSM wholly ignored all of these 
real-world consequences, which disproportionately affect low-
income households. The Obama administration's regulatory 
assault can best be described as a political power grab of 
America's power grid. It is my sincere hope that Congress will 
stop the proposed SPR rule.
    Thank you for this opportunity to speak on behalf of our 
Nation's coal miners, and I will be pleased to answer any 
questions.
    [The prepared statement of Mr. Murray follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                               ATTACHMENT
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Issa. Thank you, Mr. Murray. Ms. Kaboth?

TESTIMONY OF JANET WHITACRE-KABOTH, PRESIDENT, CEO AND CHAIRMAN 
              OF THE BOARD, WHITACRE-GREER COMPANY

    Ms. Whitacre-Kaboth. Good afternoon. Thank you for inviting 
me to testify. My name is Janet Whitacre-Kaboth. I am the 
president, CEO, and chairman of the board of Whitacre-Greer 
Company, which has manufactured clay products in northeastern 
Ohio since 1916. As we celebrate 100 years in business, we are 
very proud of our heritage. We operate a manufacturing facility 
in Alliance, Ohio, that employs approximately 80 people. We 
manufacture firebrick for the inside of masonry fireplaces and 
paving brick. In Washington, D.C., paving brick made by 
Whitacre-Greer form the sidewalks along Pennsylvania Avenue 
from the Capitol to the White House.
    I am here on behalf of my company and the brick industry as 
a whole, as I serve on the board of the Brick Industry 
Association. We are a very small company within the brick 
industry. We only have one plant that has two kilns. Our 
industry and our company is committed to doing our share and to 
doing the right thing for our employees, our vendors, 
customers, and communities.
    However, as our industry continues to struggle to come out 
of the Great Recession, we, like many others, have limited 
resources. It is extremely important that these limited 
resources be used judiciously and on the most important issues. 
It is critical that every dollar we spend gives back some 
benefit. There are many regulations that affect us, but I am 
going to talk about two regulations today: the air toxics 
standard or brick MACT developed by the USEPA; and the proposed 
revisions to the silica permissible exposure limit, expected to 
be issued very soon by OSHA. These two rules and their 
crippling impact on the brick industry illustrate how workers 
and local communities can be devastated by new regulations.
    The current brick MACT is the second time in a decade that 
the EPA imposed major requirements on our industry. The agency 
finalized a rule in 2003. Our industry complied with the rule 
in 2006. But in 2007, the courts vacated the rule. Our industry 
was in compliance with that rule when it was thrown out, and 
had spent over $100 million to install 80 of the 100 controls 
that now exist in our industry. The EPA used the performance of 
the new controls to establish even lower limits for its current 
rule, which it finalized in late 2015.
    For many brick companies, this will require them to tear 
out the existing controls that they spent millions on, and 
purchase more costly new controls in order to produce a slight 
benefit to the environment. While the brick MACT does allow a 
health-based standard for some emission types, full compliance 
will probably require the installation of control devices for 
particulate matter and mercury for most kilns. For our plant in 
Alliance, Ohio, the estimated cost is $4 million for control 
devices and operation. This represents 23 percent of our 
current net worth, which would eliminate at most 4 pounds of 
mercury per year.
    In September 2014, OSHA proposed revisions to the current 
PEL for silica. This reduction was proposed as a one-size-fits-
all type regulation that is typical. OSHA estimates costs for 
this rule to average $38,000 per year annualized over a 10-year 
period for a brick plant. However, compliance would require an 
initial capital expenditure of about $906,000.
    OSHA has been provided a significant set of studies 
conducted over the last 75 or more years, demonstrating that 
the response to the silica used in the brick industry is very 
different from other industries, and they acknowledge the much 
lower incidence rate of silicosis from our industry. They also 
separately acknowledge the high costs of their rule. However, 
they do not put these two pieces of data together and consider 
our industry separately when attempting to show that the rule 
is justified.
    In both these cases, the statutes that direct EPA and OSHA 
to develop these rules have flexibilities contained with them 
to allow these agencies to meet their obligation without 
destroying our industry. We just do not know how to make them 
use these flexibilities and to take the time to do it right, 
rather than just doing it quickly, and to not take a one-size-
fits-all approach that will destroy an industry. Compliance 
with both of these rules at the same time will devastate our 
already threatened industry, where 75 percent of the companies 
are small businesses. This is well documented in a report 
issued earlier this month by the U.S. Chamber of Commerce 
entitled ``Regulatory Indifference Hurts Vulnerable 
Communities.''
    Practically speaking, from my end, compliance with both 
these regulations would require me to obtain a loan for $5 
million that would add equipment that would not reduce our 
cost, improve our product, increase our sales, or provide any 
health benefits for our employees or neighbors. It would be 
impossible for us to obtain a loan of this size that would not 
provide us with any benefits. I spent the last 2 years trying 
to obtain financing for kiln renovation, which would reduce our 
natural gas cost by approximately $500,000 per year, but it 
took me 2 years to find a financial institution willing to lend 
us the money. The cost of compliance with both these 
regulations at the same time would put us out of business, and 
we are not the only ones.
    If the inability to comply would cause us to go out of 
business, more than $8 million would be lost from our local 
community; we would pay over $4 million in wages to 80 
families. Many of our employees would have difficulty finding 
other employment due to their low level of education.
    However, if these regulations would save lives of our 
workers or neighbors, they would be worth it, but for both of 
these rules, the agencies themselves have data that show that 
the benefits of these regulations is minimal or nonexistent for 
our industry.
    So, I guess I would like to think that after 100 years of 
providing good employment, paying taxes, and trying to be a 
responsible corporate entity, that someone in the government 
could look at the cumulative effect of this regulation and help 
us. Thank you.
    [The prepared statement of Ms. Whitacre-Kaboth follows:*]
---------------------------------------------------------------------------
    *Note: Supplemental material submitted with this prepared statement 
is not reprinted in this record but is on file with the Committee, and 
can also be accessed at:

  http://docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=104519.
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ATTACHMENT
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               __________
    Mr. Issa. Thank you. Mr. Meyer.

   TESTIMONY OF JARED MEYER, FELLOW, ECONOMICS21, MANHATTAN 
                           INSTITUTE

    Mr. Meyer. Chairman Issa, Ranking Member Johnson, and other 
Members of the House Judiciary Committee, thanks for giving me 
the opportunity to give testimony on how the current model of 
Federal regulation stands in the way of millennial 
entrepreneurs. Millennials have been called the startup 
generation, but few young Americans have followed through on 
their entrepreneurial dreams. About two-thirds of millennials 
want to work for themselves at some point. Yet less than 4 
percent of private businesses are at least partially owned by 
someone under the age of 30, the lowest annual proportion on 
record.
    Government policy, particularly in regards to regulation, 
ignores the reality of a 21st century economy and continues to 
hold back millennials' economic opportunity. Congress has 
granted executive and independent agencies freedom to regulate 
with minimal oversight, and these agencies consistently 
understate the costs that their pronouncements place on young 
Americans. It is impossible to know the full costs of America's 
175,000-page Code of Federal Regulations because executive 
agencies refuse to take count.
    For example, during 2014, only 16 of the over 3,500 rules 
published in the Federal Register had a cost analysis. This 
lack of oversight occurred even though there were 290 
significant rules and 69 economically significant rules that 
year. These types of rules generally have over $100 million in 
annual negative effects on the economy, and are supposed to 
undergo rigorous review.
    Agencies are also increasingly acting as legislators. In 
2015, there were over 50 regulations for each law that Congress 
passed. This imbalance shows the need for Congress to take back 
its authority from agencies. Public review and transparency 
requirements do not apply to agency guidance documents, 
memorandum, or notices.
    These growing types of shadow, or also called dark matter, 
regulation lack transparency, even though they can impose 
substantial costs on young Americans. This negative effect can 
be seen in the Department of Labor's efforts to make it more 
difficult for independent contractors to work.
    The Labor Department recently issued an administrator's 
interpretation, which did not have to go before the public for 
comments; that downplays a lack of control over workers' hours 
as a determinant in employment status. The flexibility that 
independent contractor status offers workers is vital for many 
industries, including the emerging sharing economy. The sharing 
economy's embrace of technology, convenience, and flexibility 
embodies many young Americans' economic ideal. While some 
workers use these platforms full-time, the vast majority use 
them for part-time work or supplemental income. For about the 
70 percent of young adults who experience an average change of 
over 30 percent in their monthly incomes, the opportunity to 
smooth out earnings to meet rent, pay down student loans, or 
fund a new business venture is a benefit of the sharing economy 
that must be protected.
    Young Americans realize how out of touch regulators are 
with today's economy. If you look at it, only 18 percent of 
millennials believe that regulators primarily have the public's 
interest in mind. The worker classification needs to be sorted 
out by Congress, not courts or unaccountable executive 
agencies. The alternative is the crippling of economic 
opportunity by executive agencies who are set on incorrectly 
classifying the vast majority of new economy workers as 
employees.
    The House Judiciary Committee deserves credit for 
establishing a task force on executive overreach, as there are 
many ways that Congress can regain control over Federal 
agencies and restore lost economic opportunity for millennials. 
Part of the reason for the ineffectiveness of previous reforms 
is the inherent incentives that agencies have to expand their 
reach. Internal regulatory reviews have not led to meaningful 
reform, but how could they have? The hands-off approach that 
Congress has given agencies provides little incentive for self-
control.
    The three main priorities for meaningful regulatory reform 
should be slowing the continued growth in the cost and number 
of regulations, repealing outdated and burdensome regulations, 
and giving the public a greater say in agencies' actions. Many 
promising regulatory reforms have already been introduced in 
the House. The Regulatory Predictability for Business Growth 
Act, the Regulatory Accountability Act, REINS Act, Red Tape 
Act, and SCRUB Act, all address at least one of these important 
priorities.
    Young Americans need a stronger voice in the regulatory 
process, and their elected representatives can provide that 
check. Millennials value transparency, democracy, and 
accountability. It is long past time for Congress to apply 
these principles to U.S. regulation.
    Thank you for the opportunity to provide testimony, and I 
look forward to continuing the discussion.
    [The prepared statement of Mr. Meyer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                               __________
    Mr. Issa. Thank you. Dr. McLaughlin.

  TESTIMONY OF PATRICK A. McLAUGHLIN, Ph.D., SENIOR RESEARCH 
       FELLOW, MERCATUS CENTER AT GEORGE MASON UNIVERSITY

    Mr. McLaughlin. Chairman Issa, Ranking Member Johnson, 
Members of the Committee, thank you for inviting me. My main 
point today is simple: regulations contribute to poverty. That 
may sound counterintuitive, perhaps because some people assume 
that the costs of regulations are limited to compliance costs, 
and that those costs are paid primarily by businesses. This 
belief is incorrect. There are at least two specific ways that 
the costs of regulation can actually be regressive, meaning 
that the costs are disproportionately borne by low-income 
households.
    First, regulations have regressive effects by increasing 
the prices of basic necessities, such as electricity and 
housing, which typically are the big-ticket items on the budget 
of low-income households.
    Second, some types of regulations are associated with 
higher levels of income inequality, because they make it too 
costly and too difficult for entrepreneurs from the lowest 
segments of the income distribution to start their own 
businesses.
    On my first point, in contrast to the belief that 
businesses pay the cost of regulation, regulatory growth is in 
fact associated with increases in the prices of all goods for 
all consumers.
    A recent study, which I have submitted for the record, 
found that a 10 percent increase in the quantity of Federal 
regulations is associated with a 0.7-perecent increase in 
prices. While 0.7 percent may sound small, consider that this 
same study found that regulations grew by 33.6 percent from 
2000 to 2012. A simple linear calculation of the effect over 
time implies that 2.31 percent of price inflation was 
associated with Federal regulatory growth.
    However, if you consider annual compounding, which would be 
appropriate given that this is a rate of growth, the total 
price inflation associated with regulation over that period is 
close to 9 percent; and I promise I will not mention annual 
compounding again. That percentage is the average across all 
households, but the price inflation associated with regulation 
is worse for low-income households because the big-ticket items 
in their budgets also happen to be heavily regulated. For 
example, electricity costs make up more than twice as much of 
the budgets of low-income households compared to high-income 
households. Because it is heavily regulated, the regulatory 
price inflation associated with the good is also relatively 
high.
    My second point is that regulations can contribute to 
income inequality. In the study that I submitted for the 
record, a co-author and I examined a sample of 175 countries to 
learn more about the relationship between regulation and income 
inequality. We found that those countries with more stringent 
entry regulations tend to experience significantly higher 
levels of income inequality. The explanation for this is 
straightforward: when entrepreneurs cannot legally open a 
business because of the cost or difficulty of dealing with 
regulations, they may abandon the idea altogether.
    Consider the longstanding reputation of America as the land 
of opportunity, where you can lift yourself up by your 
bootstraps with enough hard work. Indeed, entrepreneurship has 
historically been one of the best paths from rags to riches. If 
regulations are inhibiting this process, people with low 
incomes have fewer opportunities to rise up the income 
distribution.
    In sum, there is mounting evidence, mounting empirical 
evidence, that regulations are contributing to poverty. First, 
they have regressive effects caused by increasing prices, 
particularly for those items that low-income households 
purchase most.
    Second, regulations can contribute to income inequality by 
increasing the cost of starting a business. This makes it more 
difficult for entrepreneurs to start their climb up the income 
ladder.
    Although these facts are surely disheartening, there is 
good news. Because regulations disproportionately harm low-
income households, regulatory reform offers an opportunity to 
enact a policy that would effectively act like a tax refund, 
because it would reduce the price inflation associated with 
regulations.
    However, unlike a one-time tax refund, the benefits from 
regulatory reform would repeat year after year. They would not 
increase the deficit, and they would be progressive in their 
nature. That is, they would accrue foremost to low-income 
households. The regulatory process in the United States leads 
to regulatory accumulation, the buildup of rules over time.
    Federal regulatory code currently contains over 1 million 
individual regulatory restrictions. If you actually tried to 
read regulations as a full-time job, it would take you over 3 
years to read the entire code: over 3 years.
    The accumulation of regulation is both undesirable because 
of the unintended consequences associated with it, and 
avoidable. If this accumulation of regulation is harming not 
only the economy but especially low-income households, it is 
certainly time to consider ways that we can eliminate 
regulations that are obsolete, duplicative, ineffective, or 
otherwise undesirable. We can and should change the regulatory 
process to reduce the ways that Federal regulations are 
hurting, not helping, low-income households. Thank you for your 
attention.
    [The prepared statement of Mr. McLaughlin follows:**]
---------------------------------------------------------------------------
    **Note: Supplemental material submitted with this witness statement 
is not reprinted in this record but is on file with the Committee. The 
complete statement can be accessed at:

  http://docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=104519.
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
    Mr. Issa. Thank you. Mr. Weissman.

           TESTIMONY OF ROBERT WEISSMAN, PRESIDENT, 
                         PUBLIC CITIZEN

    Mr. Weissman. Thank you, Mr. Chairman, Mr. Johnson, Members 
of the Committee. This hearing is constructed around looking at 
the costs of regulation, but it does not make sense to think 
only about the costs without looking at the benefits, without 
thinking about how it nets out for society.
    You mentioned in your opening statement that it is 
important to take into account the impact of regulation on 
real, live people, and that is true, but we have to think about 
that for regulatory benefits as well. When we fail to protect 
the safety of our food, real people get sick and die. When we 
make our air clean, lives are saved: real, live people's lives 
are saved.
    When we improve safety and health in our workplaces, it 
makes a difference for real, actual people. These are not 
hypothetical matters. They make a big difference, and the 
history of regulation in America is that it has conferred 
enormous benefits on our country.
    It has actually conferred not just health, safety, and 
environmental benefits, but significant economic benefits. Now, 
I think there is a substantial literature of non-empirical and 
poorly constructed studies that suggest the contrary, but when 
you actually look at regulations that are adopted--in fact, 
look at the costs, look at the benefits, as OIRA does on an 
annual basis--the benefits exceed costs by between 2-to-1 or 
15-to-1.
    As an aside, the study that Mr. McLaughlin was just 
referring to relies on data from the World Bank. The long time 
lead to establish a business in the United States--four days in 
that study. Hard to see how that is a significant contributor 
to economic inequality.
    Regulation, additionally, is not responsible in any scaled-
up way for job loss. Before the Bureau of Labor Statistics 
stopped collecting data, very few employers reported that 
regulation was responsible for layoffs, as compared to general 
business demand. And if we pause for a moment and think about 
our recent history, and what is by far the greatest contributor 
to job loss, not just in the last 10 years but in the last 70 
years, it was the Great Recession, due in substantial part, by 
almost any account, to regulatory failure: either too few 
regulations, too much deregulation, too little regulatory 
enforcement.
    So, in fact, it is regulation; and it is lack of regulation 
and lack of regulatory enforcement that has been by far the 
greatest contributor to job loss, as well as, of course, 
disruption to families, households, and wages.
    Moreover, there are substantial savings available, economic 
savings, that come from smart regulation. I list a number of 
examples in my testimony. Energy efficiency rules have saved 
consumers hundreds of billions of dollars. The introduction of 
generic competition for pharmaceuticals has saved more than 
$1.5 trillion, as compared to brand-name prices, over the last 
decade. The Administration's Clean Power Plan would save 
between $260 and $840 billion in net costs, and would actually 
reduce overall energy bills for households if it were to take 
place, if it is to be ultimately implemented.
    A final point, as has been noted, this Committee and 
Washington has been engaged in a debate about regulatory policy 
for quite some time, and revisited many similar arguments, I 
think, over time. And it might be useful to move beyond the 
same back-and-forth debate, to have a more empirically-informed 
debate, but also to think about where there can be a meeting of 
minds.
    And as regards the issue of startups and small business, it 
seems to me that there is a great opportunity to think about 
how regulation can promote competition and benefit small 
businesses.
    For example, there is substantial evidence of manipulation 
in the energy markets, which directly impact the ability of 
small business to operate effectively. That would be an 
excellent area, in my view, for further Committee investigation 
and for congressional action. There is a substantial problem of 
patent trolls and the abuse of patent monopolies to undermine 
innovation in the IT sector. There are problems from too-big-
to-fail and too-big-to-jail financial institutions not 
providing adequate credit to small businesses. That is an 
appropriate area for investigation and action by this Committee 
and by Congress.
    Mr. Johnson has introduced legislation to address the 
problem of forced arbitration, which denies even small 
businesses the ability to bring antitrust claims against large 
corporations that are engaged in unfair and monopolistic 
practices against them. That, too, I think is an area where 
there should be action, where we can see where regulation will 
actually empower small business, increase market competition, 
and make our country stronger, safer, and more financially 
well-off.
    [The prepared statement of Mr. Weissman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               __________
    Mr. Issa. Thank you. And certainly you got a rise 
positively when you talked about patent trolls. Thank you. 
Yeah, there you go. Dr. Bivens.
    Mr. Johnson. Well with arbitration also.
    Mr. Bivens. Thank you.
    Mr. Issa. Something for everyone. Doctor?

         TESTIMONY OF JOSH BIVENS, Ph.D., RESEARCH AND 
           POLICY DIRECTOR, ECONOMIC POLICY INSTITUTE

    Mr. Bivens. I thank the Members of the Committee, and 
particularly the Chair and the Ranking Member, for the 
invitation to testify today. I am the Research and Policy 
Director of the Economic Policy Institute, and I am also a 
macroeconomist by training, which means I have a pretty decent 
grasp on what the best research indicates are the drivers of 
overall trends in job creation and wage growth.
    This research is clear that regulatory changes at the 
Federal level are not primary drivers of these trends; and this 
finding applies both to the long historical record, as well as 
to recent economic history, for example, during the recovery 
from the Great Recession, a recovery that officially began in 
mid-2009.
    Over the course of this recovery, there is really little 
evidence that a surge in excess regulation has held back either 
job growth or wage growth. Perhaps the clearest evidence of 
this can simply be seen by looking at the profitability 
performance of the U.S. business sector since the recovery 
began. The case that some regulatory surge since 2009 has 
strangled businesses' ability to expand really should rest on 
evidence that regulations are making production less 
profitable. But production has not become less profitable for 
American business since 2009. Both pre- and post-tax profit 
margins have essentially matched 50-year highs during the 
latest recovery.
    And so, there is very little evidence that lack of 
profitability or anything about regulations imposing excess 
costs on businesses could really be holding back employment 
growth in today's U.S. economy; and people have noted that 
employment growth has not really been held back. We have had 71 
straight months of private sector job growth. The one really 
clear weakness in job growth during the current recovery is the 
public sector.
    Federal, state, and local governments have actually shed 
jobs about two-and-a-half percent over the course of the 
recovery, in very stark contrast to any other postwar recovery. 
In the recoveries in the early 1980's and early 2000's, public 
sector jobs grew by about 11 and 5 percent, respectively. So, 
it is really hard to see any fingerprints of excess regulation 
stunting job growth over the past 7 years.
    You know, this is not to suggest that no rule ever cannot 
be disruptive to any community. If the argument is that 
regulations with net benefits should be accompanied by measures 
to ensure that no specific set of communities bear a 
disproportionate burden of the gross costs, that is a very 
worthy conversation to have. That is unfortunately not the 
conversation that we generally have about regulation.
    Turning to wage growth, it is clear there is a genuine 
problem in the American economy. The bottom 70 percent of the 
wage distribution has seen essentially stagnant growth in 
hourly pay over about the last three decades. That includes the 
period in the late 1990's where wages were actually pretty 
good, when labor markets got very tight.
    But the problem with stagnant wage growth certainly did not 
begin in 2009. Hourly wages for the bottom 70 percent were 
stagnant over the economic recovery that preceded the Great 
Recession. And hourly pay for the typical worker has actually 
steadily fallen behind growth in economy-wide productivity 
since the late 1970's. And this wedge between economy-wide 
productivity growth and hourly pay for the typical worker has 
been driven, in large part, by regulatory retreat, not 
regulatory overreach.
    The fallout from the Great Recession is the clearest cause 
of stagnant wage growth recently. This recession was caused, as 
Rob mentioned, largely by the failure of regulators to check 
access in the financial sector.
    Besides the regulatory failure that contributed to the 
Great Recession, the stagnation of hourly pay has been driven 
by intentional policy decisions, lots of regulatory decisions 
that took away traditional leverage mechanisms for low- and 
moderate-wage workers. The value of the Federal minimum wage 
was allowed to erode for excessively long periods of time 
without Congress raising it. The playing field was not kept 
level between willing workers who wanted to form a union and 
employers who were trying to block such efforts.
    Federal protections guaranteeing the right to overtime pay 
were allowed to really stagnate as the salary threshold was not 
updated for inflation. Lack of enforcement in wages and hours 
has made wage theft rampant for low-wage workers. I would say 
American workers really do have real wage problems, but they do 
not have much to do with any alleged excessive regulations 
passed in recent years.
    And I would echo the call that the regulatory debate in 
turn should hinge on the pros and cons of specific regulations, 
and not rely on sweeping claims about some bundled, homogenous 
mass of regulatory changes that are allegedly driving economy-
wide trends in job and wage growth.
    And with that, I thank you for your attention. I am happy 
to answer questions.
    [The prepared statement of Mr. Bivens follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                               __________
    Mr. Issa. Thank you. I will recognize myself for some 
questions. And doctor, since your microphone is still close, 
pull it in, Dr. Bivens. My father-in-law was a World War II 
Army Air Corps pilot. He was a bomber pilot out of England 
flying over Germany, and I am sure that when the Fourth Air 
Force and all these others were rating what happened on a given 
day, if they sent out 100 planes and 99 came back, it was a 
good day. And if they sent out 100 planes and 80 came back, it 
was a bad day; but whether you were one of one or among the 20, 
for you it was a really bad day regardless.
    So, when you gave the macroeconomics view, you really were 
not addressing what is happening to an 80-person employer in 
Alliance, Ohio, who after 100 years is being faced with 
essentially having to buy her company anew, almost, just to 
comply with the regulation. For her, she is being shot down, is 
she not? Or a coal company that effectively is losing all of 
its resources through retroactive regulation. So, for those 
two, there is an economic impact, is there not?
    Mr. Bivens. Yep, there definitely is. There is also jobs 
created by regulatory changes as well.
    Mr. Issa. Yeah, usually here in Washington. That is true.
    Mr. Bivens. And for places that do energy efficiency to 
meet these same regulations that are affecting energy----
    Mr. Issa. Again, those are the people on the horse. You 
know, it is one of those amazing things, is here in Washington, 
they always think that more people on a horse makes the horse 
go faster, rather than more horses make it go faster. And this 
is also a place where, as you know, there is more horse's asses 
than horses.
    But it is absolutely amazing to me that everybody thinks a 
good job is a job sitting on the back of a horse telling the 
horse to go faster, not actually getting more horses to 
actually pull the load.
    Ms. Kaboth, I am going to focus on you in my short time, 
since we are fellow Ohioans, and although I went to Kent State, 
so it is a little different curriculum. But----
    Ms. Whitacre-Kaboth. I will not tell you what we say about 
Kent People.
    Mr. Issa. ``If you cannot go to college, go to Kent.'' I 
know it.
    Ms. Whitacre-Kaboth. There you go. You already know.
    Mr. Issa. We know that. And then, we even say worse things 
about some of our athletic teams. However, let's go through 100 
years of your family's history. I assume you were making bricks 
100 years ago, including some of them on Pennsylvania Avenue, 
as you said in your testimony. Materials you use substantially 
the same 100 years ago?
    Ms. Whitacre-Kaboth. Yes. Basically it is clay and shale, 
raw materials from the ground. We used to use coal to burn 
them; now we use natural gas.
    Mr. Issa. Okay. So, 100 years ago, you used coal. You 
burned it naturally, the way they do in Hanoi today. So, black 
smoke, it was pretty awful, no question at all.
    Ms. Whitacre-Kaboth. Right.
    Mr. Issa. And as you switched from coal to maybe cleaning 
up coal a little bit, and then ultimately to natural gas. 
Either way, your particulate count went down much cleaner, 
right?
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. Okay. And that transition occurred over many, 
many years, right?
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. And so, you made a decision to convert your kilns 
or to buy new ones at the end of a cycle, when you decided to 
reinvest, right?
    Ms. Whitacre-Kaboth. Correct.
    Mr. Issa. So, the speed of new regulation at that time was 
one in which you were looking at changes in a way in which your 
company could meet those requirements and plan for them, right?
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. Now, you mentioned that recently, you upgraded 
some of your equipment, and you bought--made a large capital 
investment, and that that capital investment was somewhat based 
on existing regulations you were complying with. And now you 
are being asked to comply with regulations when in fact that 
equipment is still relatively new. Is that your testimony?
    Ms. Whitacre-Kaboth. Yes, that is correct.
    Mr. Issa. So, in your case, if I understand correctly, for 
the 4 pounds of mercury a year that your plant would put out, 
and correct me if I am wrong, that 4 pounds of mercury at a 
given production level is about the same 4 pounds it was 100 
years ago, right?
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. So, we are not talking about a new pollutant. We 
are talking about something that was in place in the 1960's and 
1970's when these laws were put in place.
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. So, after 40 or 50 years of the government having 
the ability to regulate, and after they regulated and caused 
you to make capital investments just a few years ago, they are 
now asking you to make another major capital investment: 
essentially, bet your company on new equipment to deal with 
something that is been around for 100 years and certainly for 
the 50 years, 40-some years of the Clean Air Act. Is that 
right?
    Ms. Whitacre-Kaboth. That is correct.
    Mr. Issa. So, your testimony today, if I understand it--and 
I just want to stick to your testimony because I have lived 
that life as a manufacturer--is there is nothing wrong with 
your wanting to invest in new equipment and reduce this. It is 
the fact that they want you to do it on their schedule, which 
is immediate, rather than on a reasonable schedule of 
compliance that gives you time to plan for and make those 
capital investments in the ordinary course of how people 
improve their business. Is that right?
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. Last question. The age of your equipment--what 
is--you said you had relatively new kilns. How old are they?
    Ms. Whitacre-Kaboth. We have a kiln that was built in 1955. 
Our second kiln, we have been renovating, and it was built in 
1960.
    Mr. Issa. And I am going to close with this. You mentioned 
that it took you years to get the loan so you could begin 
getting a new efficiency level that would save, I believe, half 
a million dollars a year?
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. And on a $4 million payroll, that is a lot of 
money.
    Ms. Whitacre-Kaboth. Yes.
    Mr. Issa. So, if the government really cared about the 
balance between your reducing CO2 emissions by taking $500,000 
worth of burning of natural gas out versus this 4 pounds of 
mercury, they would actually be helping you get a low-cost 
lender loan so that you could reduce that consumption, would 
they not?
    Ms. Whitacre-Kaboth. That would be really nice.
    Mr. Issa. Sometimes we just miss Ohioans when we are 
looking for energy savings. Thank you. And I now recognize the 
Ranking Member for his questions.
    Mr. Johnson. Thank you, Mr. Chairman and thank the members 
of the panel for coming here today to testify. Mr. Murray, it 
is your contention that regulations are what is resulting in 
your industry not doing as well as it had in the past?
    Mr. Murray. Yes, sir.
    Mr. Johnson. Which rules in particular, in addition to the 
Stream Protection Rule, are you unhappy with?
    Mr. Murray. In addition to the Stream Protection Rule, we 
have the Clean Water Rule, the mine dust rule, the ozone rule, 
and the Clean Power Plan that we are currently dealing with, 
along with a myriad of other regulations that have been pushed 
under this Administration.
    Mr. Johnson. Now, you are aware of the fact that 95 percent 
of the world's scientists, as I understand it, all agree that 
the burning of fossil fuels like coal produce heat-trapping 
gases that are the main cause of the ongoing rise in global 
atmospheric temperatures.
    Mr. Murray. I am not a climate scientist; I am a coal 
miner. But I will say that by the EPA's own admission, you 
could shut down every coal-fired power plant in the United 
States, and it would have a negligible effect on the climate. 
That is a fact; they have stated as such.
    I am here today to talk about the Stream Protection Rule. 
This is a real issue. It is a job killer. It is going to affect 
those on fixed income, low-income families, senior citizens, 
and it is a catastrophic rule that will destroy underground 
coal mining in this country.
    Mr. Johnson. Well, you know, there are a lot of 
organizations that take a different view of the Stream 
Protection Rule, and they see a need for regulations to protect 
clean water, to enable us as people to enjoy clean water. And 
you know, regulations have their place, do they not?
    Mr. Murray. Yes, absolutely. We are for clean water. There 
are laws on the books right now with the Surface Mining Control 
and Reclamation Act of 1977. Those rules are complied with 
daily. We have more environmental scientists on staff than we 
have mining engineers. So, we work with the state and Federal 
agencies continually and apply our good science and good faith 
and sincere concern for the environment on a daily basis and we 
work with those agencies. And the rules that are on the books 
now, they work, and they do not need to be materially rewrote 
under the Stream Protection Rule.
    Mr. Johnson. Well, I can appreciate your view on that. And 
others have a different view. And, you know, the fact is the 
coal industry is subject to a lot of pressure from--I mean, Ms. 
Kaboth, her industry or her company has moved away from coal-
fired plants or coal-fired production to natural gas. Is that 
right, Ms. Kaboth?
    Ms. Whitacre-Kaboth. Yes, that is correct.
    Mr. Johnson. And so, natural gas is one of your 
competitors, Mr. Murray. Is that not correct?
    Mr. Murray. Absolutely. Yes, that is correct.
    Mr. Johnson. That is another factor that is causing your 
industry to not be doing as well as it once did?
    Mr. Murray. That is correct, yes.
    Mr. Johnson. And you believe that--both of you believe, do 
you not, that health of workers is a legitimate area for 
regulation?
    Mr. Murray. Absolutely.
    Ms. Whitacre-Kaboth. Yes.
    Mr. Johnson. So, you are not contesting any occupational 
safety rules, occupational health and safety rules, are you?
    Mr. Murray. In the mining sector, we have one called the 
mine dust rule, which on its face sounds like it is a health 
and safety rule that would help our miners but, in fact, it 
does not. But as far as occupational safety health measures, it 
is the only thing we would be contesting.
    Mr. Johnson. And, Mr. Bivens, your conclusion is that these 
regulations have no impact on job creation or investment or 
profits or even wages for workers. Is that correct?
    Mr. Bivens. Not at the economy-wide level. There is 
definitely some shuffling of jobs. You do have some negative 
impacts in some sectors of the economy that are counterbalanced 
by positive impacts elsewhere. But aggregate trends--no, 
regulatory changes are just not a primary driver.
    Mr. Johnson. All right. Mr. Weissman, you are the only 
attorney on the panel. I share that dubious distinction with 
you, although I appreciate having that distinction. Anything 
you would like to add?
    Mr. Weissman. I think it is just important to remember two 
things. One is that for----
    Voice. Could you move it a little closer?
    Mr. Weissman. Closer? Two things. One is that it is natural 
for regulated companies to push back against regulations that 
are newly being required of them. The record of industry 
complaining about the next regulation ready to destroy it is 
not a good one, including, I must say, in the coal industry 
particularly. But this is true going back to the New Deal and 
bankers, chemical companies, restaurant and hotels worried 
about clean air rules related to tobacco. I detail some of this 
in my testimony. That is one thing.
    And the other thing is, the stories are compelling. And as 
Dr. Bivens suggested, individual firms may actually be 
impacted, but there are individuals who are benefiting as well, 
and we are not hearing from them today. The person who is 
protected from silica dust exposure and resulting cancer--that 
is a real, live life saved as a result of the rule that is 
being talked about here. And there is going to be hundreds of 
lives saved every year by the silica rule that we are 
discussing.
    You go down the list of these, of the regulations, we are 
talking about; they have these net benefits. We aggregate them. 
But those net benefits are really an expression of the lives 
that are saved, the lives that are improved, the quality of 
life that is guaranteed as a result of the rules that are under 
discussion today.
    Mr. Johnson. All right. Thank you. My time has expired, so 
thank you. Mr. Chairman, I ask for unanimous consent to enter 
into the record a letter from the coalition of environmental 
groups in support of this, the stream rule, and also a letter 
from the American Sustainable Business Council that is 
regarding this hearing.
    Mr. Marino [presiding]. Without objection, so ordered.
    Mr. Johnson. Thank you.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               
                               
                               __________
    Mr. Marino. Okay. The Chair now recognizes the gentleman 
from Georgia, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. I will say this, 
though--and we are going to get to Mr. Murray and Ms. Kaboth. I 
thank you all for being a part of this panel. You actually work 
in industries and not discuss other industries, and I always 
think that the greatest thing about these panels--no offense to 
my legal experts and my think tanks--you are actually hiring 
people, getting people jobs, doing those kind of things that 
actually are being affected up here in Washington.
    And being a part of this panel makes great sense. The thing 
that just--and I have sat up here for just a few moments. And 
again, Mr. Bivens is probably the most--and I am not saying 
dishonest or--the truthful thing you said just a moment ago was 
the shuffling of jobs--that one may have a problem in where 
it--you know where that greatest impact is shown is in 
Washington, D.C. We have been wonderful at creating jobs in 
Washington, D.C. We have been wonderful at creating regulatory 
impact jobs in Washington, D.C.
    We have not been very good--I mean, when you have--I am 
going to just name some things here because, Mr. Chairman, 
this--I could not think of a better--I have got banks that are 
being regulated by more regulators than the bank has employees. 
And the regulators get mad because they do not have someplace 
to sit down.
    Mr. Weissman, you just said the silica rule. I was in 
environmental monitoring before. You know what one of the 
problems with the silica rule is? They cannot get honest 
measurements. They cannot determine actual levels. You go to 
the granite industry in my district, and you actually go into 
one of these facilities where they are already using protective 
devices and try and measure ambient silicate. I mean, it sounds 
great. You are going to save so many other people. It sounds 
wonderful, but yet, the practicality is almost impossible to 
read.
    You get into phosphate readings in Lake Lanier in northeast 
Georgia in which the phosphate levels taken from the sample are 
too small to be accurately counted, but yet the cities and 
counties are required to meet a level in which the Federal 
Government cannot even verify.
    We talk about issues when it comes to the position of 
saying regulations help. There is nobody in this room, and this 
is where the straw man arguments often come out in this, that 
Republicans do not like regulations; we want unsafe air; we 
want to drink dirty water; we want to do this. That is 
ridiculous. What is unfair to the American people is to come up 
with rules and regulations and say, ``Well, they do not affect 
people.'' I have got an industry in my district, RING, (?) 
which is a nonprofit. They are wanting to expand and want to 
do, but they got caught with the 50 full-time equivalent issue. 
Now, we can say that, you know, that regulations do not affect 
jobs, but they cannot afford to grow because of these 
regulations that have been put on them.
    Every night that I am thankfully home, I get to sleep with 
and have a great relationship with a wife who is a teacher. I 
am tired of hearing my wife for 26 years--because one of the 
things we talk about is jobs in this Committee and regulatory 
in this Committee is, we need an educated workforce, but, yet, 
we have an ever-expanding Department of Education up here, many 
who of which have never been in a classroom. Banking regulators 
who have never made a loan, telling the rest of the world how 
to make a loan: that is just ludicrous. Educators sitting in a 
cubicle saying, ``Here is how you teach kids,'' and have never 
taught in a classroom.
    It is not the fact if regulation matters. It is the fact of 
Washington on steroids thinking, ``We know better than 
everywhere else.'' If you want to help industry, if you want to 
help manufacturers be--I have yet to walk into a factory in 
which the general manager says, ``Doug, watch today. We are 
going to maim three people. Doug, I want you to watch this. We 
are hiding the ball, and we want to see people's fingers cut 
off today. It is fabulous. Watch it.''
    When you have OSHA, which lives off its own fine system, 
hiring regulators, increasing the fine schedule, and going in, 
and this is what they do. They fine first instead of showing 
businesses, ``Here is a better way. Here is how you can fix the 
problem''--never seen that in your industries, I bet. But 
instead, it is because they have to keep their job. They are 
better than used car salesmen. OSHA inspectors have to write up 
and have to get fines, and then they settle the fines. If that 
is the regulatory environment that this country wants, then we 
are headed straight for disaster.
    So, to say silica is going to save all these lives--Mr. 
Weissman, show me how you are going to measure that in the 
ambient air. Show me how that is actually going to save people. 
I believe several things. I believe you eat right, you exercise 
daily, you follow your doctor's instructions, you die anyway. 
There are some things in life that are just attributable to 
living, and to say we are going to save so many people by 
something that you honestly cannot measure is a disingenuous 
remark to a country that is struggling for jobs and education.
    Mr. Bivens, you said it right. Regulations help some areas, 
and they hurt others. My problem is, they hurt these people on 
this end who are actually trying to give people jobs, and they 
help people up here who have never done the jobs. I do not have 
any questions, Mr. Chairman. I yield back.
    Mr. Marino. The Chair recognizes the gentleman from New 
York, Congressman Jeffries.
    Mr. Jeffries. Thank you, Mr. Chair. And I want to thank the 
witnesses for your presence here today. And if I could just 
start with Mr. Meyer, and perhaps we can take a macroeconomic 
approach to the economic situation that we find ourselves in 
today. Is it your view that regulations that have been put 
forth under this Administration have stifled economic growth in 
America?
    Mr. Meyer. I would say that there are specific examples of 
regulation that have made it harder for young people to start 
businesses. But I would say this is by no means a phenomenon 
that is unique to this Administration. If you look back at the 
history of regulatory growth and accumulation, it has been 
unfortunately a bipartisan priority to continue increasing the 
size and scope of Federal regulation.
    Mr. Jeffries. Now, we are in a period of unprecedented 
economic growth, correct?
    Mr. Meyer. I would not call it unprecedented. I would agree 
that we have seen an impressive streak of monthly job growth. 
But we still have not reached levels that would be expected 
this long after the recession.
    Mr. Jeffries. Seventy-one consecutive months of private 
sector job creation is impressive, correct?
    Mr. Meyer. It is impressive that it is been unbroken. But 
if you look at the employment levels, especially taking into 
account decreased labor force participation, I think there are 
still a lot of problems going on in the labor force right now, 
especially----
    Mr. Jeffries. Fourteen million jobs created under this 
Administration is impressive, correct?
    Mr. Meyer. Yes, but if you look at, for young people, the 
labor force participation rate for teenagers now is at the 
lowest rate ever; same with for young adults 20 to 24, and this 
is not accounted for by increased education or increased people 
who are going to school. So----
    Mr. Jeffries. Over the last 7 years, the unemployment rate 
has gone from over 10 percent to under 5 percent, correct?
    Mr. Meyer. Could you say that one more time? Sorry.
    Mr. Jeffries. I said, over the last 7 years, the 
unemployment rate has gone from over 10 percent to under 5 
percent. Is that correct?
    Mr. Meyer. Well, overall. But if we are looking at 
unemployment rates for young people, it is now still over 16 
percent for teenagers, and it is pushing 9 percent for young 
adults 20----
    Mr. Jeffries. Teenagers who would otherwise be in high 
school or college?
    Mr. Meyer. These are ones who want a job and are looking 
for a job but are unable to find one.
    Mr. Jeffries. I certainly think it is the case that we need 
to do more. I just want to make sure that the record is clear 
as it relates to the progress that has already been made over 
the last 7 years.
    Now, you testified, I believe, that the length of the U.S. 
Code of Federal Regulation is preventing millennial 
entrepreneurship because, I want to get the quote right, 
``attempting to comprehend which of these million-plus 
restrictions apply to their businesses is a waste of young 
entrepreneurs' valuable time.'' Is that right?
    Mr. Meyer. Yes, that was in my testimony.
    Mr. Jeffries. Now, there are a whole host of other factors 
that limit the ability of millennials to pursue entrepreneurial 
activities, correct?
    Mr. Meyer. Yes, there are many, among them, having trouble 
finding a job, student loan debt. There are a lot of other 
factors.
    Mr. Jeffries. Now, let's focus in on what I think is the 
predominant problem that we have got in America. Student loan 
debt is now $1.3 trillion, correct?
    Mr. Meyer. That is correct.
    Mr. Jeffries. That is an unprecedented number in American 
history, correct?
    Mr. Meyer. Yes.
    Mr. Jeffries. And that level of student loan debt, which is 
strangling young people, limits their ability to purchase a 
home earlier than or along the same timeframe as prior 
generations. True?
    Mr. Meyer. Yes. When 70 percent of graduates are graduating 
with an average of $30,000 in student loans, that does put a 
burden on your future.
    Mr. Jeffries. And it may even limit their ability to get 
married, start a family consistent with the timeframe of prior 
generations, correct?
    Mr. Meyer. I think that is one of the factors that has led 
to delayed marriages.
    Mr. Jeffries. And would you not also agree that that $1.3 
trillion number is probably the predominant factor in limiting 
millennials from taking an entrepreneurial risk because of the 
need to consistently pay off student loan debt on a month-by-
month basis?
    Mr. Meyer. Since the summer, since my book came out, I have 
traveled across the country and spoken to hundreds of 
millennials, a lot of them that want to be entrepreneurs. And 
student loan debt was brought up. But also, a lot of people, 
when they wanted to start their business, they thought it was 
as simple as, you know, have an idea, comply with a few basic 
tax and regulatory requirements, and then start earning money, 
or start providing opportunity to others. And they----
    Mr. Jeffries. I appreciate that. I have got limited time, 
so----
    Mr. Meyer. Okay, sorry.
    Mr. Jeffries [continuing]. If I can just get one or two 
questions in.
    Mr. Meyer. Yeah.
    Mr. Jeffries. But I do really appreciate your thoughtful 
responses. Now, Facebook is a successful company, true?
    Mr. Meyer. Yes.
    Mr. Jeffries. And that was founded by millennials, correct?
    Mr. Meyer. Yes.
    Mr. Jeffries. Twitter is a successful company, correct?
    Mr. Meyer. Correct.
    Mr. Jeffries. Started by millennials. True?
    Mr. Meyer. Yes, in general.
    Mr. Jeffries. Snapchat is a successful company?
    Mr. Meyer. Yes, and that----
    Mr. Jeffries. Started by millennials, correct?
    Mr. Meyer. Yes.
    Mr. Jeffries. Okay. Uber is a pretty successful company. 
True?
    Mr. Meyer. Yes.
    Mr. Jeffries. Started by millennials, correct?
    Mr. Meyer. Just over the millennial cutoff, but pretty 
close.
    Mr. Jeffries. Okay. Yelp is a successful company, correct?
    Mr. Meyer. Is--which company?
    Mr. Jeffries. Yelp.
    Mr. Meyer. Yes.
    Mr. Jeffries. Started by millennials?
    Mr. Meyer. I am not sure if Yelp's founder was a millennial 
or not.
    Mr. Jeffries. Okay. No further questions. I yield back.
    Mr. Marino. Thank you. The Chair now recognizes the 
gentleman from Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I think everyone 
here knows and hopefully agrees that unnecessary regulations 
hurt job growth and suppress wages, but we often talk about 
that conceptually. We talk about it in broad strokes. We talk 
about tens of thousands of jobs that will be crushed by a new 
regulation created by some unelected bureaucrat or the millions 
of dollars in compliance costs. But those tens of thousands of 
jobs are not just numbers; they are individuals, and they are 
families. They are hardworking Texans like a lot of the folks 
that I represent. And those millions of dollars in compliance 
costs do not just appear out of thin air. Those are funds that 
could otherwise be used to pay salaries or to create more jobs 
or to invest in future growth.
    Just 2 months ago, Gallup released a poll that found that 
69 percent of Americans name big government as the biggest 
threat to our country right now and in the future, not ISIS, 
not out-of-control spending, not a broken health care system, 
not a nuclear Iran. Now, those threats are certainly all real. 
But right now, 7 out of 10 Americans are most worried about a 
rapidly growing government, a government that does stifle 
opportunity instead of fostering it. And it is a real problem, 
as we are hearing today. It is forcing companies out of 
business that have been around for almost a century. Real 
people are losing their jobs. Businesses are not growing.
    So, Dr. McLaughlin, I want to start with you. Regulators do 
not seem to understand that the world is interconnected. They 
appear to view each regulation in isolation and do not seem to 
understand that they are actually crushing the jobs of their 
fellow Americans. I want to give you an opportunity to 
elaborate on this very narrow-minded, naive, in my opinion, 
view of the world.
    Mr. McLaughlin. Thank you. Yes, typically a regulatory 
impact analysis performed by a regulatory agency looks at a 
single proposed rule in isolation and that is not a bad thing. 
But it is also necessary to consider that rule as part of a 
system of rules. And to paraphrase, actually, Ranking Member 
Johnson, there are nuanced questions concerning the interplay 
of various forces here, and those should be considered. 
Complexity of the regulatory system can in itself be a negative 
force in our economy.
    Mr. Ratcliffe. So I think you would agree with me that the 
claimed societal benefits of regulations are often inflated. 
And if you do agree with me, who is it that is pushing the 
inflated benefit estimates, and why are they doing that?
    Mr. McLaughlin. A couple of thoughts on this. First, the 
benefits estimates that are typically referred to are coming 
out of agencies' estimates before they make regulations. They 
are not estimates after the fact. It would be wonderful if we 
could implement a system of measuring both costs and benefits 
after rules have had their effects and we understand whether 
they are actually working or not. That would be a good way, if 
there is inflating going on, to avoid that.
    But second, I also think it is relevant to consider the 
incentives of anyone who is engaged in a measurement activity, 
whether it is agencies or someone else. If agencies have 
incentives to make their numbers appear one way or the other, 
then perhaps you want to have independent analysis or another 
analyst take a look as well to corroborate.
    Mr. Ratcliffe. Thank you, doctor. Ms. Kaboth, your 
testimony touched on two very troubling trends that we are 
seeing: one, out-of-touch regulators who seem to have no grasp 
of the real-world impact of the regulations. You said they need 
to understand the local impacts of their rule on real people 
whose real lives may be ruined by losing their job. I could not 
agree more.
    You also discussed a troubling pattern by this 
Administration of imposing an illegal regulation forcing the 
industry to spend sometimes millions of dollars to comply with 
it, only to then have courts throw that regulation out. And by 
that time, of course, it is too late for the companies who have 
spent all that money to do anything about it and to comply. So, 
as an individual business owner and an employer, I want to give 
you an opportunity to talk a little bit about the human element 
and consequence of those two trends.
    Ms. Whitacre-Kaboth. My family has owned this company for 
100 years, and a few years ago we had to make a decision with 
our next generation of owners if we wanted to continue to make 
brick, or if we wanted to try and cash out. It was becoming 
more expensive to be a manufacturer. The markets were smaller, 
and one of the things that we really talked about was the role 
of regulation. How much were we going to have to spend in the 
future, and would it be worth it? It is expensive to make 
brick. Everything about it is expensive, frankly. However, when 
we talked about it with the entire--we got the entire family 
together, and we all wanted to invest in continuing to make 
brick. And it was not just us, because the people that we work 
with--we have worked with their families for a long time, and 
we feel responsible for the 80 people that work at our plant. 
It is not very many people, but they are our people and we want 
them to continue to have jobs.
    Mr. Ratcliffe. My time has expired. I would just like to 
say this in closing: that your company has been in your 
community for almost a century. That is quite a feat. 
Congratulations. It would also be quite a shame if the reason 
it stopped doing business was--after nearly a century--was 
because of unnecessary regulatory interference. With that, I 
yield back, Mr. Chairman.
    Mr. Marino. Thank you. I will now recognize myself for 
several questions. And I apologize for being late, but I had a 
piece of legislation on the floor that I had to be present for. 
I want to thank you all for being here. I know everyone is 
genuinely concerned about the issues presented to them. We just 
have a different aspect of how to get there, but I will get to 
you two gentlemen in a moment.
    I want to ask Mr. Weissman--excuse me, Mr. Murray--Mr. 
Weissman referred to something in his testimony that, ``a 
history of regulated industries' Chicken Little claims about 
the devastating impact of proposed rules.'' Would you share 
with me some of the conversations you have had with people 
that--in your company about what they have expressed to you 
about losing their jobs or the potential of losing their jobs? 
What it is going to mean to them and to their families?
    Mr. Murray. Thank you, Mr. Chairman, for your question. It 
is devastating. I have talked to many of our employees. We have 
2,000 that are laid off right now. I have had to lay off many 
of them myself. They express outrage. Financially, they have 
nowhere to go. And there is no job for them to go to. Our coal 
miners are making around $80 to $100,000 a year. These jobs are 
irreplaceable anywhere in their community.
    Some of the greatest reward in my career has been when I 
have hired someone that literally was working at a fast food 
restaurant and we gave him a job opportunity; he improved his 
standard of living, bought his first house, had his first 
child, grew up, sent his kids to college. We get to see those 
things on a daily basis, and with this Stream Protection Rule, 
that will not continue to exist.
    Mr. Marino. Thank you. Ms. Kaboth, you say compliance with 
OSHA's silica rule threatens the entire industry. Can you share 
with us how many silicosis cases have you had in the last 40 to 
50 years with your company?
    Ms. Whitacre-Kaboth. None at Whitacre-Greer, which is what 
I know. None.
    Mr. Marino. I would like to read something into the record. 
``In January of 2016, the Bureau of Labor Statistics' 
seasonally adjusted U-3 unemployment rate fell to an 8-year low 
of 4.9 percent. But this figure masked workers who are 
underemployed or who have left the workforce. When those 
categories are included, the picture is much more troubling. 
The Bureau of Labor Statistics' U6 employment number, which 
includes those who cannot find full-time work, and those about 
a million, stands at 9.9 percent, almost 10 percent, more than 
twice the U-3 rate.''
    So, I see that all the time in my district. People who have 
good-paying jobs are now rated as being full-time employed 
because they are cutting grass or working part-time at a fast 
food stand.
    Gentlemen, there is no one that is more concerned about the 
environment as I do. I live out in the country. I get my water 
from the ground. I have children, and I want to protect them 
with my life. But we are getting to a point where--well, just 
let me read you something--actually, I do not have the quote; I 
will find it, and get it in the record. But an international 
organization stated that--they were talking about China and 
India. They are the single--China, but in addition to the other 
country I named, are the single largest sources of pollution in 
the world, not only with coal, but also with what they are 
burning, and what they are dumping into their waters.
    And it goes on to refer to--that if the United States 
stopped using all fossil fuels whatsoever, it would be 
negligible, if anything, that would have any impact on cleaning 
up the environment. So, I do believe that humans do create 
pollution problems, but I do not agree with the extent that is, 
I think, being propagated out there.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                               __________
    Mr. Marino. I am not sure which one of you, but you stated 
that jobs, in your opening statement, stated that jobs are 
created when jobs are lost; and I invite you to come to my 
district, the 10th Congressional District of Pennsylvania and I 
can assure you--there is an electric plant that generated 
electricity using coal. It is out of business. I can assure 
you, those people are not coming to Washington to get a job.
    So, you know, can--you know, the benefits that you are 
stating, I think, Dr. Bivens, you stated quite a bit the 
benefits of this: they are overstated, as well as the other 
side of the coin here.
    So even looking at the banking industry--I hear it from the 
banking industry. I hear it from the coal industry, 
manufacturing, the food industry; OSHA, EPA, the Labor Bureau: 
the regulations are just crushing jobs in my district. I had a 
banker just tell me, when I was in my district last week, for--
if I have the figures right--17 days, 12 regulators were in 
their bank. So, they had to pay so much attention to those 
people, they were not giving the customers the service that 
they really deserved. They were not working on loans. They 
left, and everything was fine.
    So, I think the pendulum is swinging in the wrong 
direction, and even though my time has expired, as the 
Chairman, I have a little bit of clout here and I will 
certainly give my colleague, if he wants to ask other 
questions, but what do you suggest?
    I mean, you are both very well educated men, but have you 
ever--and please do not take this personally--have you ever 
visited a coal mine? Have you ever visited an electric-
generating power plant? Have you ever visited a construction 
site where a guy builds three houses a year in trying to make a 
living, but he cannot now because now he has to build a 
reservoir at the tune of $20,000 within a three-house project 
to take care of so-called runoff water? Help us out here. Mr. 
Weissman?
    Mr. Weissman. Well, a few things, Mr. Chair. First, on the 
environmental point you made, there are some global 
environmental issues like climate change. In that case, it is 
not true that if the U.S. were to go to zero emissions, it 
would have no impact on the global problem. It would have----
    Mr. Marino. I did not say no impact; that it would have 
negligible impact.
    Mr. Weissman. It would not be negligible. It would have a 
significant impact and would also have a demonstration impact 
that would change other things. But----
    Mr. Marino. Yeah, but you think we should be demonstrating 
to the world, to China, who keeps pumping out the burning coal, 
at the risk of us losing jobs?
    Mr. Weissman. I will answer; I do not want to try to dodge 
your question. But I did not want to ignore the other pieces of 
what you were saying. No. I mean, obviously the U.S. is not 
going to go to--is not on track to go to zero emissions. If you 
actually look at the Clean Power Plan, though, as I discuss--
and which is the actual plan on the table, as I discuss in my 
testimony--that will lower electric bills for consumers. So, it 
is going to be both a net savings on cost-benefit analysis. But 
just on the consumer side, in terms of what we spend on 
electric bills, we will save money as a result of the Clean 
Power Plan.
    Mr. Marino. In the long run. But what do you say to the 
electric plant that puts scrubbers in that they were supposed 
to put in 5 years ago and then gets another order from EPA 
saying, ``Now you have got to put this on top of the 
scrubbers,'' which costs millions and millions of dollars, and 
172 people are put out of work? I mean, there has to be a cost 
analysis in here taking into consideration the jobs, and as far 
as expanding jobs in D.C., believe me, you do not want to go 
there with me.
    Mr. Weissman. I mean, I am happy to go there with you 
because I agree with you. There are too many jobs that the 
regs--and to the earlier member's point about distrust of big 
government, the stories about regulated industry having too 
much power, not being subjected to an overreach Washington--
that is what people are objecting to--that big corporations 
have too much influence, that they are the ones who are writing 
the rules, that they have too many lobbyists here.
    Unfortunately, Public Citizen and our friends--we are not 
really a match in terms of numbers. That is not really the 
problem. So, I agree that there is a broad perception of that. 
I think the assessment of what that means is off. I do not 
think actually people are saying they want the government to 
stand aside. They just want the government to stand with them.
    I take very seriously job loss. Mr. Issa is gone; I am from 
Cleveland as well, and I come from an auto family. I come from 
a family that works with injured workers. I know these issues 
quite well. No one from Cleveland is insensitive to the issue 
of job loss. But if we think about regulatory issue and job 
loss, there is no question that the most significant impact was 
the regulatory failure that led to the Great Recession. And if 
we want to sort of talk about what is the role--what is the 
connection between regulation and jobs, that we did not prevent 
the financial sector from causing the Great Recession, by far 
the biggest story of the last 7 years on job loss.
    Mr. Marino. Okay, I do not dispute you with that. In fact, 
I agree with you. But from a regulatory perspective of banks 
and lending, sure, that is important. We need a certain degree 
of regulation, but I was more so pointing to examples of 
manufacturing jobs in my district, which is a rural district 
and a farming district. And I think you are aware of what the 
EPA tried to do in the farming industry with the Army Corps of 
Engineers--simply saying because there is a puddle of water on 
a farmland, this gives them the right, through the Navigable 
Waters Act, to come in and to regulate.
    Listen, I live in the middle of five farms. I have not seen 
a boat come through there yet, but I think we want the same 
thing. It is just a different approach. Dr. Bivens, do you want 
to respond to any of this?
    Mr. Bivens. If I could, really quickly. I mean, a couple 
people have said it now: the claim that the jobs created by 
regulatory changes are in D.C. There is no evidence that they 
show up in D.C. And in fact, if you look over the past 
recovery, it is the public sector that has been really weak in 
job creation, historically weak in job creation, while the 
private sector has done very well.
    So, you take the environmental regulations we have talked 
about. The jobs created through regulatory changes--they are 
construction workers retrofitting buildings and weatherizing 
them. It is people who manufacture and install renewable 
capacity; some people bringing forward natural gas capacity 
sooner than it would otherwise. It is not jobs in D.C. They are 
entirely outside.
    Mr. Marino. And I agree with you, particularly in the 
natural gas aspect, one of the most clean-burning fossil fuels 
that we have. I mean, we should be building an infrastructure 
on that.
    But again, you are comparing apples and oranges. You are 
comparing sitting behind a desk doing something, where most 
people in the United States do not sit behind a desk. They are 
farmers. They work in factories. They have to go to part-time 
jobs because we do not have the industry in this country 
because, in part, because of the environmental controls and 
OSHA and others. So, we could debate this.
    I would love to talk to you more so in the future about 
this. But given the fact that we are running close to 5:00, we 
are going to shut down now the question-and-answer part of 
this. And I appreciate everything that all of you have brought 
to our attention because these are clearly hearings that we 
want to get the facts. We want to get issues out. And that will 
help us make determinations on how we legislate or should be 
legislating in this country.
    So with that, this concludes today's hearing. I want to 
thank all you witnesses once again for coming here, spending 
time with us, traveling here. And I want you to have a safe 
trip back to wherever you are going. And without objection, all 
Members will have 5 legislative days to submit additional 
written questions for the witnesses or additional materials for 
the record. And this hearing is adjourned.
    [Whereupon, at 4:40 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Material submitted by the Honorable Tom Marino, a Representative in 
Congress from the State of Pennsylvania, and Chairman, Subcommittee on 
            Regulatory Reform, Commercial and Antitrust Law
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                <F-dash>

    Response to Questions for the Record from Jared Meyer, Fellow, 
                    Economics21, Manhattan Institute
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                <F-dash>

Response to Questions for the Record form Patrick A. McLaughlin, Ph.D. 
   Senior Research Fellow, Mercatus Center at George Mason University
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
